APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order in the Supreme Court of the
State of New Mexico
(March 27, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Opinion in the Court of
Appeals of the State of New Mexico
(January 16, 2019) . . . . . . . . . . . . App. 3
Appendix C Judgment, Sentence and Commitment
in the Second Judicial District Court,
County of Bernalillo, State of New
Mexico
(September 15, 2016) . . . . . . . . . App. 37

App. 1

APPENDIX A
IN THE SUPREME COURT OF
THE STATE OF NEW MEXICO
NO. S-1-SC-37525
[Filed March 27, 2019]
__________________________
STATE OF NEW MEXICO, )
)
Plaintiff-Respondent, )
)
v.
)
)
RYAN BEGAY,
)
)
Defendant-Petitioner. )
__________________________ )
ORDER
WHEREAS, this matter came on for consideration
by the Court upon petition for writ of certiorari filed
under Rule 12-502 NMRA, and the Court having
considered said pleadings and being sufficiently
advised, Chief Justice Judith K. Nakamura, Justice
Barbara J. Vigil, Justice Michael E. Vigil, Justice C.
Shannon Bacon, and Justice David K. Thomson
concurring;
NOW, THEREFORE, IT IS ORDERED that the
petition for writ of certiorari is DENIED; and

App. 2
IT IS FURTHER ORDERED that the Court of
Appeals may proceed in State v. Begay, Ct. App. No. A1-CA-35964 in accordance with the Rules of Appellate
Procedure.
IT IS SO ORDERED.
[SEAL]

WITNESS, the Honorable Judith K.
Nakamura, Chief Justice of the Supreme
Court of the State of New Mexico, and the
seal of said Court this 27th day of March,
2019.
Joey D. Moya, Clerk of Court
Supreme Court of New Mexico
By

/s/Madeline Garcia
Chief Deputy Clerk

I CERTIFY AND ATTEST:
A true copy was served on all parties
on their counsel of record on date filed.
Madeline Garcia
Clerk of the Supreme Court
of the State of New Mexico

App. 3

APPENDIX B
IN THE COURT OF APPEALS OF
THE STATE OF NEW MEXICO
A-1-CA-35964
[Filed January 16, 2019]
__________________________
STATE OF NEW MEXICO, )
)
Plaintiff-Appellee,
)
)
v.
)
)
RYAN BEGAY,
)
)
Defendant-Appellant. )
__________________________ )
APPEAL FROM THE DISTRICT COURT OF
BERNALILLO COUNTY
Stan Whitaker, District Judge
Hector H. Balderas, Attorney General
Anita Carlson, Assistant Attorney General
Santa Fe, NM
for Appellee
Caren I. Friedman
Santa Fe, NM
for Appellant

App. 4
MEMORANDUM OPINION
GALLEGOS, Judge Pro Tempore.
{1}
Following a jury trial, Ryan Begay (Defendant)
was convicted of one count of child abuse (recklessly
caused, great bodily harm); two counts of child abuse
(recklessly caused, no death or great bodily harm); one
count of shooting at or from a motor vehicle (great
bodily harm); one count of shooting at or from a motor
vehicle (no injury); and one count of tampering with
evidence. Defendant appeals his convictions, raising six
issues: (1) sufficiency of the evidence to support the
child abuse convictions, including whether the victim’s
injury amounted to great bodily harm; (2) denial of due
process of law; (3) double jeopardy; (4) inconsistent
verdicts; (5) error in striking a juror for cause; and
(6) ineffective assistance of counsel.
{2}
We conclude that Defendant’s convictions for two
counts of child abuse (recklessly caused, no death or
great bodily harm) violate double jeopardy and we
remand, directing the district court to vacate one of the
two counts of child abuse (recklessly caused, no death
or great bodily harm). Unpersuaded by the balance of
Defendant’s appellate arguments, we otherwise affirm.
BACKGROUND
{3}
At approximately 11:00 a.m. on June 26, 2013,
Defendant and his girlfriend, Sabra Montoya, along
with Sabra’s sister, Samantha, went to an apartment
complex in Albuquerque to purchase heroin. Defendant
apparently obtained some heroin and “shot up” in the
apartment complex parking lot. Sabra’s cousin, Trey
Gomez, who lived in the complex, came outside and

App. 5
confronted Defendant in the parking lot. Following an
intense argument with Trey, Defendant, Sabra, and
Samantha began to drive away, with Sabra driving the
vehicle, Defendant riding as the front passenger, and
Samantha sitting in the back seat. They heard noises,
which they purportedly believed to be shots fired at
them—later determined to be rocks being thrown—
coming from Trey’s direction. Defendant then balanced
himself out of the passenger window and fired several
gunshots over the roof of the vehicle in Trey’s direction.
Several adults and three children (J.A., Ma.G. and
Me.G.,) had been in the parking lot along with Trey
during the confrontation, and one of the little girls,
twenty-month-old J.A., was shot in her leg. Defendant,
Sabra, and Samantha drove off, and Defendant later
threw the gun in the Rio Grande River.
{4}
Defendant was charged with—and tried
for—fifteen different crimes, fourteen of which were
related to the shooting, with the last charge being
tampering with evidence. The jury was instructed on
self-defense for all of the shooting related counts.
Following his trial, Defendant was ultimately convicted
for six of the charges. He now appeals. We consider his
appellate issues in turn.
DISCUSSION
I. Sufficiency of the Evidence
A. Standard of Review
{5}
The first issue on appeal is whether there was
sufficient evidence to support Defendant’s child abuse
convictions, including whether J.A.’s injury amounted
to great bodily harm. In assessing the sufficiency of the

App. 6
evidence, the reviewing court “view[s] the evidence in
the light most favorable to the guilty verdict, indulging
all reasonable inferences and resolving all conflicts in
the evidence in favor of the verdict.” State v.
Cunningham, 2000-NMSC-009, ¶ 26, 128 N.M. 711,
998 P.2d 176. In criminal cases, “[t]he test for
sufficiency of the evidence is whether substantial
evidence of either a direct or circumstantial nature
exists to support a verdict of guilty beyond a reasonable
doubt with respect to every element essential to a
conviction.” State v. Montoya, 2015-NMSC-010, ¶ 52,
345 P.3d 1056 (internal quotation marks and citation
omitted). We disregard all evidence and inferences that
support a different result See State v. Rojo, 1999NMSC-001, ¶ 19; 126 N.M. 438, 971 P.2d 829. We “will
not second-guess the jury’s decision concerning the
credibility of witnesses, reweigh the evidence, or
substitute [our] judgment for that of the jury. So long
as a rational jury could have found beyond a reasonable
doubt the essential facts required for a conviction, [the
appellate c]ourt will not upset a jury’s conclusions.”
State v. Ramirez, 2018-NMSC-003, ¶ 6, 409 P.3d 902
(alteration, emphasis, internal quotation marks, and
citations omitted).
B. The Evidence Presented Was Sufficient to
Support Defendant’s Convictions for Child
Abuse
{6}
Defendant contends that his convictions for child
abuse were not supported by sufficient evidence. “Jury
instructions become the law of the case against which
the sufficiency of the evidence is to be measured.” State
v. Smith, 1986-NMCA-089, ¶ 7, 104 N.M. 729, 726 P.2d

App. 7
883. With respect to the charge of child abuse resulting
in great bodily harm, the jury here was instructed as
follows:
For you to find [Defendant] guilty of child
abuse resulting in great bodily harm, as charged
in Count 1, the [S]tate must prove to your
satisfaction beyond a reasonable doubt each of
the following elements of the crime:
1. [Defendant] shot [J.A.];
2. By engaging in the conduct described in
Paragraph 1, [Defendant] caused [J.A.] to be
placed in a situation that endangered the life or
health of [J.A.];
3. [Defendant] showed a reckless disregard
without justification for the safety or health of
[J.A.]. To find that [Defendant] showed a
reckless disregard, you must find that
[Defendant]’s conduct was more than merely
negligent or careless. Rather, you must find that
[Defendant] caused a substantial and
unjustifiable risk of serious harm to the safety or
health of [J.A.]. A substantial and unjustifiable
risk is one that any law-abiding person would
recognize under similar circumstances and that
would cause any law-abiding person to behave
differently than [Defendant] out of concern for
the safety or health of [J.A.].
4. [Defendant]’s conduct resulted in great
bodily harm to [J.A.];
5. ... Defendant did not act in self defense;

App. 8
6. [J.A.] was under the age of eighteen (18);
7. This happened in New Mexico on or about
the 26th day of June, 2013.
{7}
With respect to the first charge of child abuse
not resulting in great bodily harm, the jury was
instructed as follows:
For you to find [Defendant] guilty of child
abuse, as charged in Count 2, the state must
prove to your satisfaction beyond a reasonable
doubt each of the following elements of the
crime:
1. [Defendant] shot a firearm in the presence
of [Ma.G.];
2. By engaging in the conduct described in
Paragraph 1, [Defendant] caused [Ma.G.] to be
placed in a situation that endangered the life or
health of [Ma.G.];
3. [Defendant] showed a reckless disregard
without justification for the safety or health of
[Ma.G.]. To find that [Defendant] showed a
reckless disregard, you must find that
[Defendant]’s conduct was more than merely
negligent or careless. Rather, you must find that
[Defendant] caused a substantial and
unjustifiable risk of serious harm to the safety or
health of [Ma.G.]. A substantial and
unjustifiable risk is one that any law-abiding
person would recognize under similar
circumstances and that would cause any lawabiding person to behave differently than

App. 9
[Defendant] out of concern for the safety or
health of [Ma.G.];
4. . . . [D]efendant did not act in self-defense;
5. [Ma.G.] was under the age of eighteen (18);
6. This happened in New Mexico on or about
the 26th day of June, 2013.
The jury was instructed likewise with regard to the
charge of child abuse without bodily injury of Me.G.
{8}
Defendant’s sufficiency argument is premised
almost entirely on his assertion that the “State
presented no evidence that [Defendant] was aware that
children were present during Trey’s attack.” Along the
same lines, Defendant argues that there is not
sufficient proof of mens rea “[w]here a defendant is
cognizant that he might injure a member of the public
and a child is incidentally affected[.]”
{9}
The Legislature defined child abuse, in pertinent
part, as “knowingly, intentionally or negligently, and
without justifiable cause, causing or permitting a child
to be . . . placed in a situation that may endanger the
child’s life or health[.]” NMSA 1978, § 30-6-1(D)(1)
(2009). “Section 30-6-1(D)(1) encompasses abuse by
endangerment that results in physical or emotional
injury as well as those circumstances where the abused
child suffers no injury of any kind at all.” Ramirez,
2018-NMSC-003, ¶ 50.
{10} In State v. Consaul, 2014-NMSC-030, ¶¶ 37-40,
332 P.3d 850, our Supreme Court clarified that the
proper standard for the lowest level of child abuse

App. 10
under Section 30-6-1(D) is “recklessness” and that
juries should no longer be instructed on “negligent”
child abuse. The standard for determining child abuse
has evolved from a “reasonable probability or
possibility that the child will be endangered[,]” State v.
Ungarten, 1993-NMCA-073, ¶ 11, 115 N.M. 607, 856
P.2d 569 (internal quotation marks and citation
omitted), abrogated on other grounds by State v.
Chavez, 2009-NMSC-035, ¶ 22, 146 N.M. 434, 211 P.3d
891, to a “substantial and foreseeable risk of harm[,]”
Chavez, 2009-NMSC-035, ¶ 22, (emphasis, internal
quotation marks, and citation omitted), and now to its
present formulation, a “substantial and unjustifiable
risk of [serious harm].” Consaul, 2014-NMSC-030, ¶ 37;
see UJI 14-612(3) NMRA.
{11} “[T]he punishment for child abuse resulting in
great bodily harm, whether done knowingly,
intentionally, negligently, or recklessly, is the same,”
Consaul, 2014-NMSC-030, ¶ 23 (emphasis omitted).
When the abuse does not result in the death of a child
under twelve, it is unnecessary to specify a particular
mens rea so long as the State proves that “the
defendant acted knowingly, intentionally or recklessly”
Montoya, 2015-NMSC-010, ¶ 33 (alteration, emphasis,
internal quotation marks, and citation omitted).
{12} However, “for a defendant to be criminally liable
for child abuse by endangerment, he or she must be
aware of a particular danger to the identifiable child or
children when engaging in the conduct that creates the
risk of harm.” State v. Gonzales, 2011-NMCA-081, ¶ 1,
150 N.M. 494, 263 P.3d 271, aff’d on other grounds,
2013-NMSC-016, ¶ 1, 301 P.3d 380. In Gonzales, the

App. 11
defendant drove while severely intoxicated and rearended another vehicle in which two children were
riding, killing one child and injuring the other. Id. ¶ 4.
The defendant was convicted of two counts of child
abuse by endangerment. Id. ¶ 4 n. 1. This Court
reversed and remanded, holding that “a discernable
risk of danger to a particular child or particular
children is required to support a conviction for
negligent child abuse by endangerment[.]” Id. ¶ 1.
{13} In Ramirez, our Supreme Court addressed a
similar situation where the defendant asserted that
there was insufficient evidence to support his child
abuse convictions because “none of the three children
were physically harmed in any way” and “there was no
evidence to support that [he] intended to harm any of
the children.” 2018-NMSC-003, ¶ 17 (alteration and
internal quotation marks omitted.) The Supreme Court
held that there was sufficient evidence of child abuse
when
[t]he jury heard evidence that [the defendant]
fired a gun at [the victim] nine times at pointblank range, that [the victim] was seated in the
front passenger seat of the Durango, and that
the children were sitting in the back seats of the
Durango in immediate proximity to [the victim].
The jury also learned that, although [the victim]
was shot nine times, only five of the bullets were
found inside of his body. Several of the bullets
[the defendant] fired traveled through [the
victim] and continued onward. One of those
bullets traveled through the driver’s-side
window in the second row of seats of the

App. 12
Durango and another bullet was recovered from
the headliner or inside roof of the Durango.
Id. ¶ 18. The Court concluded that “[f]rom this
evidence, the jury could reasonably infer that it was
sheer luck that the children were not struck by one of
the bullets [the defendant] fired at [the victim]” and
held that “the evidence presented is sufficient to
support the jury’s determination that [the defendant]
placed the three children in a situation that
endangered their lives and that [the defendant] showed
a reckless disregard for their safety and health.” Id.
{14} In the present case, the jury heard evidence that
Trey’s youngest children lived with him in apartment
8 and that as Trey walked out of his apartment to
confront Defendant, his two youngest daughters, Me.G,
age 4 or 5, and Ma.G., age 5 or 6, followed him out.
Trey’s twenty-month-old niece J.A., who lived with her
father in the apartment complex, was also outside.
There was evidence presented that Trey was probably
within arm’s reach of Defendant during their
argument, and that the three children, Me.G., Ma.G.,
and J.A., were outside in the parking lot during the
events leading up to the shooting. When Defendant
fired shots toward Trey, one of which ultimately struck
J.A., Me.G. and Ma.G. were standing right next to her.
{15} Viewing the evidence in the light most favorable
to the guilty verdicts, indulging all reasonable
inferences and resolving all conflicts in the evidence in
favor of the verdict, Cunningham, 2000-NMSC-009,
¶ 26, we conclude that a reasonable juror could have
found that Defendant was aware that the children were
outside the apartment building in the parking lot near

App. 13
Trey—in the zone of danger—when Defendant fired his
gun multiple times in Trey’s direction. See State v.
Glascock, 2008-NMCA-006, ¶ 29, 143 N.M. 328, 176
P.3d 317 (recognizing that direct evidence of knowledge
is rarely available and is almost always inferred from
other facts in the case). While we acknowledge
Defendant’s contrary argument at trial, based upon his
statement to police, and his contention on appeal that
he was not aware that the children were present in the
parking lot, “[c]ontrary evidence supporting acquittal
does not provide a basis for reversal because the jury is
free to reject [the d]efendant’s version of the facts.”
Rojo, 1999-NMSC-001, ¶ 19.
{16} Consequently, we determine that in light of the
direct and circumstantial evidence presented at trial,
the jury could have found, beyond a reasonable doubt,
that Defendant placed the three identifiable children in
a situation that constituted a substantial and
unjustifiable risk of serious hmm by shooting a gun
multiple times in their direction, and that in doing so
he showed a reckless disregard for their safety and
health.
B. There Was Sufficient Evidence of Great Bodily
Harm
{17} Defendant also argues that there was
insufficient evidence that J.A. suffered great bodily
harm. “Great bodily harm” was defined in the jury
instructions as “an injury to a person which creates a
high probability of death or results in serious
disfigurement or results in loss of any member or organ
of the body or results in permanent or prolonged
impairment of the use of any member or organ of the

App. 14
body.” Accord UJI 14-131 NMRA. Defendant’s
contention is that the gunshot wound suffered by J.A.
fails to meet any of these definitions.
{18} “‘Prolonged impairment’ is not a technical term.”
State v. Cordova, 2016-NMCA-019, ¶ 19 366 P.3d 270.
“Prolonged impairment, like protracted impairment,
means a lengthy or unusually long time under the
circumstances.” Id. (internal quotation marks and
citation omitted). It is the province of the jury to
determine whether the impairment was for a
sufficiently extended period of time to meet this
definition. Id. In Cordova, there was sufficient evidence
of great bodily harm where the victim testified at trial
that she experienced bruised ribs, severe bruising, and
road rash that covered her right side. Id. ¶ 18. She
testified that she was unable to work for approximately
one month and was largely unable to move for the first
two weeks. Id. ¶ 18. The victim further testified that
she still experienced pain from her bruised ribs. Id.
This Court held that the jury could determine that the
victim suffered great bodily harm. Id. ¶ 19.
{19} Here, the jury heard evidence that twentymonth-old J.A. was shot in the thigh by Defendant.
J.A.’s mother testified that J.A. was hospitalized for
approximately twenty-four hours after she was shot
and received follow up care for a few months after
discharge. Dr. Stephen Lu, the trauma and surgical
care physician who treated J.A. for her gunshot wound,
testified that J.A. was in pain at the time he treated
her, even with pain medication. She was given
Ibuprofen when she was discharged from the hospital.
Her bullet wound had to be cleaned, and the gauze

App. 15
changed and re-packed, twice a day for about two
weeks. Although J.A. could walk and run, she could not
do so to the best of her ability, and it took about a
month for her to fully heal. J.A. has two scars in her
upper thigh where the bullet entered and exited her
body. The scar on the front of her leg is about the size
of a penny and the scar on the back of her leg is about
the size of a dime. Photographs of J.A.’s injury were
shown to the jury at trial.
{20} Dr. Lu testified that while there was no damage
to J.A.’s bone or arteries, the femoral artery and vein,
the femur, and various nerves run through the thigh.
He testified that some of the risk factors of gunshot
wounds to children are injury to blood vessels and
bleeding to death, a loss of function from nerve injury,
and loss of function from bone injury. There is a
possibility of death as a result of such injuries. While
there was no damage to J.A.’s veins or bone, there was
damage to the skin and muscle, which Dr. Lu
characterized as damage to an organ, Dr. Lu also
testified that there is intermediate term risk of
infection, a condition which J.A. fortuitously did not
develop, The worst-case scenario if a patient develops
severe infection is limb loss or death.
{21} It is the province of the jury to determine
whether J.A.’s impairment was for a sufficiently
extended period of time to meet the definition of
prolonged impairment See Cordova, 2016-NMCA-019,
¶ 19. Viewing the evidence in the light most favorable
to the verdict, indulging all reasonable inferences and
resolving all conflicts in the evidence in favor of the
verdict, Cunningham, 2000-NMSC-009, ¶ 26, we

App. 16
conclude that a reasonable jury could determine that
J.A. suffered great bodily harm as defined in the jury
instruction.
II. Due Process
{22} Defendant also contends that the child abuse
convictions violate his due process rights. Specifically,
Defendant argues that he “was not on notice that his
conduct in defending himself against Trey’s attack
could be prosecuted as child abuse” because “there was
only a ‘possibility’ that an innocent bystander . . . would
be harmed” and, as such, his conduct is outside the
scope of the child abuse statute. This is essentially a
restatement of Defendant’s sufficiency of the evidence
challenge. Having determined that a reasonable jury
could conclude that Defendant was aware that the
children were in the line of fire at the time of the
incident, and recklessly disregarded the substantial
and unjustifiable risk to the children’s safety, and
health when he fired multiple shots in their direction,
we see no due process violation.
III. Double Jeopardy
{23} Double jeopardy claims are generally reviewed
de novo. State v. Baca, 2015-NMSC-021, ¶ 25, 352 P.3d
1151. But “where factual issues are intertwined with
the double jeopardy analysis,” appellate courts defer to
the district court’s findings of fact, unless unsupported
by substantial evidence. Id. (internal quotation marks
and citation omitted).
{24} “The Double Jeopardy Clause of the Fifth
Amendment, enforced against the states by the
Fourteenth Amendment, protects defendants from

App. 17
receiving multiple punishments for the same offense.”
Ramirez, 2018-NMSC-003, ¶ 38 (internal quotation
marks and citation omitted). The Double Jeopardy
Clause protection is limited “to prevent[ing] the
prosecutor from bringing more charges, and the
sentencing court from imposing greater punishments,
than the Legislative Branch intended.” Id. (internal
quotation marks and citation omitted).
{25} There are two types of double jeopardy multiplepunishment cases. Id. ¶ 39. One is “the unit of
prosecution case, where a defendant challenges
multiple convictions under the same statute.” Id.
(internal quotation marks and citation omitted). The
other is “the double description case, where the same
conduct results in multiple convictions under different
statutes.” Id. (internal quotation marks and citation
omitted). Defendant makes both types of double
jeopardy multiple-punishment challenges here.
A. Unit of Prosecution
{26} Defendant first argues that his three convictions
for child abuse and his two convictions for shooting
from a motor vehicle violate double jeopardy under a
unit of prosecution analysis. In a unit of prosecution
analysis, “the defendant has been charged with
multiple violations of a single statute based on a single
course of conduct. The relevant inquiry is whether the
[L]egislature intended punishment for the entire course
of conduct or for each discrete act.” Id. ¶ 45 (omission,
internal quotation marks, and citation omitted). “[T]he
only basis for dismissal is proof that a suspect is
charged with more counts of the same statutory crime
than is statutorily authorized.” State v. Bernal, 2006-

App. 18
NMSC-050, ¶ 13, 140 N.M. 644, 146 P.3d 289. “The
issue, though essentially constitutional, becomes one of
statutory construction.” Herron v. State, 1991-NMSC012, ¶ 6, 111 N.M. 357, 805 P.2d 624.
{27} Appellate courts apply a two-step test to
determine the Legislature’s intent with respect to the
unit of prosecution. Ramirez, 2018-NMSC-003, ¶ 47.
The first step of the analysis is to look to the language
of the statute to determine whether the Legislature
defined the unit of prosecution. See State v. Bernard,
2015-NMCA-089, ¶ 17, 355 P.3d 831. “However, if the
language is ambiguous, we proceed to the second step
of the analysis in which our task is to determine
whether a defendant’s acts are separated by sufficient
indicia of distinctness to justify multiple punishments
under the same statute.” Id. (internal quotation marks
and citation omitted). “If the acts are not sufficiently
distinct, then the rule of lenity mandates an
interpretation that the [L]egislature did not intend
multiple punishments, and a defendant cannot be
punished for multiple crimes.” Bernal, 2006-NMSC050, ¶ 14,
1. The Multiple Child Abuse Convictions Violate
Double Jeopardy
{28} With respect to the first step, statutory
language, we observe again that Section 30-6-1 (D)(1)
states: “Abuse of a child consists of a person knowingly,
intentionally or negligently, and without justifiable
cause, causing or permitting a child to be . . . placed in
a situation that may endanger the child’s life or
health[.]” The Court in Ramirez held that this language
is ambiguous as to the unit of prosecution. 2018-

App. 19
NMSC-003, ¶ 55. Thus, we move on to the second step
of the analysis.
{29} Under the second step of the unit of prosecution
analysis, we determine whether a defendant’s acts are
separated by sufficient “indicia of distinctness” to
justify multiple punishments under the same statute.
See Bernard, 2015-NMCA-089, ¶ 17. “Our case law
instructs that we consider the temporal proximity of
the acts, the location of the victim(s) during each act,
the existence of an intervening event, the sequencing of
acts, the defendant’s intent as evinced by his or her
conduct and utterances, and the number of victims.”
Ramirez, 2018-NMSC-003, ¶ 56.
{30} In conducting this analysis, the number of
victims factor plays a significant role. “Multiple victims
will likely give rise to multiple offenses.” Id. ¶ 57
(alteration, internal quotation marks, and citation
omitted). “While the existence of multiple victims does
not, itself, settle whether conduct is unitary or distinct,
it is a strong indicator of legislative intent to punish
distinct conduct that can only be overcome by other
factors.” Bernal, 2006-NMSC-050, ¶ 18. As this Court
explained in State v. Castañeda,
[w]e further emphasize that a single unit of
prosecution in a child abuse case involving
multiple victims is only appropriate where the
children have not actually been harmed.
Pursuant to the statute, a person may be guilty
of child abuse even if the child is not actually
harmed. If actual harm results from child abuse,
however, the focus shifts from the actions of the
abuser to the result of those actions, and each

App. 20
child harmed is a distinct victim with unique
injuries. Under such circumstances, it is entirely
appropriate to charge the perpetrator with a
separate count of child abuse for each victim.
2001-NMCA-052, ¶ 15, 130 N.M. 679, 30 P.3d 368
(citation omitted).
{31} In Ramirez, multiple child victims suffered
mental injuries as a result of the defendant’s conduct.
2018-NMSC-003, ¶ 57. Notably, the three children
involved in Ramirez testified that they were in fear and
shock as they witnessed the defendant shoot into the
vehicle in which they were sitting and kill another
passenger. Id. Our Supreme Court thus held:
In the circumstances of this case in which each
of the three children separately testified to the
fear and shock they respectively suffered as a
result of [the defendant]’s wanton conduct, we
hold that the Legislature intended prosecution
for three counts of child abuse by endangerment.
[The defendant]’s three convictions for child
abuse do not violate double jeopardy.
Id. ¶ 58.
{32} In this case, Defendant was convicted for one
count of child abuse (recklessly caused, great bodily
harm), based on his conduct vis-à-vis J.A., and two
counts of child abuse (recklessly caused, no death or
great bodily harm), based on his conduct vis-à-vis
Ma.G. and Me.G. Defendant argues that each of the
child abuse convictions arose from the same course of
conduct—shooting from the vehicle in quick succession
without any intervening event—and are therefore not

App. 21
based on separate and distinct acts. Defendant thus
contends that his multiple child abuse convictions
violate double jeopardy.1
{33} It need be emphasized that Defendant’s
conduct—shooting from the motor vehicle in the
direction of Trey, the children, and the other
bystanders in the parking lot—had a two-fold result:
J.A. was actually harmed, and the other two children
were put into harm’s way. There was, however, no
evidence presented at trial that either Ma.G. or Me.G.
was actually harmed. Applying the reasoning in
Castañeda and Ramirez, we conclude that Defendant’s
actions recklessly placed both Ma.G. and Me.G. in a
situation that endangered their health or safety, but
caused no harm, justifying a single punishment; but as
a consequence to those same actions, J.A. suffered a
discrete injury, making her a distinct victim and
justifying an additional punishment. Consequently, we
conclude that Defendant’s convictions for two counts of
child abuse (recklessly caused, no death or great bodily
harm) violate double jeopardy where only one
punishment was justified. Defendant’s separate
conviction for child abuse (recklessly caused, great
bodily harm), however, does not violate double
jeopardy.
{34} We observe that the district court did in fact
merge the two counts of child abuse (recklessly caused,
1

Defendant conceded below that there should be two separate
child abuse convictions, one for child abuse against J.A. and one
encompassing the child abuse against both Ma.G. and Me.G.
However, on appeal, he is apparently arguing that only one child
abuse conviction should survive a unit of prosecution analysis.

App. 22
no death or great bodily harm) for sentencing purposes.
On remand, however, one of these convictions must be
vacated. Cf. State v. Santillanes, 2001-NMSC-018,
¶ 28, 130 N.M. 464, 27 P.3d 456 (“[C]oncurrent
sentencing does not adequately remedy the imposition
of impermissible multiple punishments for a single
offense; double jeopardy requires that the lesser offense
merge into the greater offense such that the conviction
of the lesser offense, not merely the sentence, is
vacated.”).
2. The Two Shooting From a Motor Vehicle
Convictions Do Not Violate Double Jeopardy
{35} Defendant was convicted for one count of
shooting at or from a motor vehicle (great bodily harm)
for his conduct with respect to J.A., and for one count
of shooting at or from a motor vehicle (no injury) for his
conduct with respect to Me.G. Defendant broadly
claims that these convictions violate double jeopardy.
{36} As an initial matter, we note that the analysis
contained in Defendant’s brief in chief moves directly
to the second step of the unit of prosecution test. That
is, Defendant does not look to the language of the
shooting from a motor vehicle statute to determine
whether the Legislature defined the unit of
prosecution, see Bernard, 2015-NMCA-089, ¶ 17, nor
does he provide us with any argument regarding the
appropriate unit of prosecution. Instead, Defendant
delves directly into arguing that the conduct at issue
constituted “one shooting.” We also note that the
State’s answer brief provided us with no additional
clarity with respect to the appropriate unit of
prosecution. This Court has no duty to review an

App. 23
argument that is not adequately developed. See
Headley v. Morgan Mgmt. Corp., 2005-NMCA-045, ¶
15, 137 N.M. 339, 110 P.3d 1076 (declining to entertain
a cursory argument that included no explanation of the
party’s argument and no facts that would allow this
Court to evaluate the claim). “To rule on an
inadequately briefed issue, [the appellate courts] would
have to develop the arguments itself effectively
performing the parties’ work for them.” Elane
Photography, LLC v. Willock, 2013-NMSC-040, ¶ 70,
309 P.3d 53. “This creates a strain on judicial resources
and a substantial risk of error. It is of no benefit either
to the parties or to future litigants for [the appellate
courts] to promulgate case law based on our own
speculation rather than the parties’ carefully
considered arguments.” Id. Therefore, we will not
determine whether the statute defines the unit of
prosecution for shooting from a motor vehicle.
{37} Assuming then, without deciding, that the unit
of prosecution for shooting from a motor vehicle is
ambiguous, we consider next Defendant’s contention
that there were insufficient indicia of distinctness to
justify multiple punishments. Defendant cites State v.
Handa, 1995-NMCA-042, 120 N.M. 38, 897 P.2d 225,
as an analogous case. We note, however, that Handa
involved an assault on a single victim. Id. ¶ 26. The
Court specifically held that “an assault arising from a
series of three successive shots to a single victim, not
separated by a significant amount of time, and arising
from a single, continuous intent constitutes one
offense[.]” Id. Without more, we are not persuaded that
the conclusion in Handa applies with equal force where
there is more than one victim.

App. 24
{38} In the absence of a better-developed argument,
we see no reason to depart from our reasoning laid out
above with respect to multiple victims in the child
abuse context. Thus, under the facts of this case, where
Defendant’s shooting from a motor vehicle resulted in
convictions based on two different victims, one of whom
was actually harmed by Defendant’s actions, we
conclude that there are sufficient indicia of distinctness
to justify multiple punishments. Cf. Herron, 1991NMSC-012, ¶ 15 (“[M]ultiple victims will likely give
rise to multiple offenses[.]”); State v. Barr, 1999-N
MCA-081, ¶¶ 19-20, 127 N.M. 504, 984 P.2d 185
(determining that distinct and separate acts of
contributing to the delinquency of a minor (CDM) were
perpetrated by the defendant where there were
multiple victims, separate effects, and where the jury
was instructed separately with respect to CDM for each
victim and the instructions “varied to some degree
according to the particular juvenile”). We conclude that
Defendant’s two convictions for shooting from a motor
vehicle do not violate double jeopardy.
B. Double Description
{39} Defendant also argues that his convictions for
child abuse and shooting from a motor vehicle violate
double jeopardy under a double description theory.
Under a double description theory, “the same conduct
results in multiple convictions under different
statutes.” Ramirez, 2018-NMSC-003 ¶ 39 (internal
quotation marks and citation omitted). Double
description challenges are analyzed under the two-part
test established in Swafford v. State, 1991-NMSC-043,
¶¶ 25-34, 112 N.M. 3, 810 P.2d 1223. First, we must

App. 25
determine whether the conduct underlying the multiple
offenses was unitary. Ramirez, 2018-NMSC-003, ¶ 42.
If we determine that the conduct at issue is unitary, we
proceed to the second part of the analysis and then
determine whether, considering the statutes at issue,
the Legislature intended to create separately
punishable offenses. Id.
{40} Turning first to the question of whether
Defendant’s conduct was unitary, we keep in mind that
“the task is merely to determine whether the conduct
for which there are multiple charges is discrete
(unitary) or distinguishable.” Swafford, 1991-NMSC043, ¶ 28. Here, Defendant fired multiple gunshots
toward a group of people in quick succession from a
moving vehicle. One of those shots struck J.A. in the
thigh, while the other shots created a substantial and
unjustifiable risk to the health and safety of Me.G. On
these facts, we conclude that the conduct underlying
both the child abuse convictions and the shooting from
a motor vehicle convictions—as each pertain to J.A.
and Me.G.—was unitary.
{41} Next, we must determine whether, considering
the statutes at issue, the Legislature intended to create
separately punishable offenses. “In the absence of an
express statement of legislative intent, we apply the
rule of statutory construction from Blockburger v.
United States, 284 U.S. 299[](1932), to ensure that each
provision requires proof of a fact that the other does
not.” State v. Fuschini, 2017-NMCA-084, ¶ 8, 406 P.3d
965 (internal quotation marks and citation omitted),
rev’d on other grounds, No. S-1-SC-36489, dec. (N.M.
Sup. Ct. Dec. 6, 2018). “If each statute requires proof of

App. 26
a fact that the other does not, it may be inferred that
the Legislature intended to authorize separate
punishments under each statute.” Ramirez, 2018NMSC-003, ¶ 43 (internal quotation marks and citation
omitted). Comparing the elements of the two statutes
at issue in this case, it is clear that each requires proof
of a fact that the other does not. Compare § 30-61(D)(1) (requiring the state to prove that the offender
placed a child in a situation that endangered the child’s
life or health), with NMSA 1978, § 30-3-8(B) (1993)
(requiring the state to prove that the offender willfully
discharged a firearm at or from a motor vehicle). Under
the Blockburger strict-elements test, we can infer that
the Legislature intended to punish these crimes
separately.2

2

Defendant does not develop any argument with respect to
whether a modified Blockburger analysis would lead us to a
different result. See State v. Gutierrez, 2011-NMSC-024, ¶ 59, 150
N.M. 232, 258 P.3d 1024 (stating that where a statute is “multipurposed and written with many alternatives, or is vague and
unspecific[,]” a modified Blockburger analysis is used to determine
if one crime is subsumed within the other (emphasis, internal
quotation marks, and citation omitted)); State v. Ramirez, 2016NMCA-072, ¶ 22, 387 P3d 266 (stating that the modified
Blockburger test is used “to determine whether the state’s theory
for one crime, as charged to the jury, is logically subsumed. . .
within the state’s theory for a separate crime”). Instead, the
analysis in Defendant’s brief in chief begins with Blockburger and
then concludes with an effort at establishing that his conduct was
unitary. His reply brief continues to conflate the modified
Blockburger analysis with the question of whether his conduct was
unitary. In the absence of adequate briefing, we will not engage in
further analysis on this point, and we will assume for purposes of
this appeal that the charged offenses at issue survive a modified
Blockburger analysis.

App. 27
{42} “We therefore must proceed to the most
challenging step of the double jeopardy analysis, trying
to determine whether the Legislature intended to
impose cumulative punishment for unitary conduct
violating two statutes that survive the Blockburger
elements test.” State v. Montoya, 2013-NMSC-020,
¶ 32, 306 P.3d 426. We do so by turning “to traditional
means of determining legislative intent: the language,
history, and subject of the statutes and we must
identify the particular evil sought to be addressed by
each offense.” Id. (internal quotation marks and
citation omitted). “If several statutes are not only
usually violated together, but also seem designed to
protect the same social interest, the inference becomes
strong that the function of the multiple statutes is only
to allow alternative means of prosecution.” Id. (internal
quotation marks and citation omitted).
{43} In looking at the statutes at issue in the present
case, we observe first that the offenses of child abuse
and shooting from a motor vehicle are not typically
violated together. The statutes also address distinct
social evils. Section 30-6-1 is “designed to give greater
protection to children than adults because children are
more vulnerable than adults[.]” Santillanes, 2001NMSC-018, ¶ 24 (internal quotation marks and citation
omitted). “When an adult, without justification,
endangers a child’ s safety, the adult is more culpable
than when the safety of another adult is jeopardized.”
Id. (internal quotation marks and citation omitted).
“[T]he history the child abuse statute compels the
conclusion that the Legislature has expanded
protection for children.” Id. (alteration, internal
quotation marks, and citation omitted). In contrast,

App. 28
Section 30-3-8(B) “is one of a group of statutes that
proscribe assault and battery.” State v. Marquez, 2016NMSC-025, ¶ 23, 376 P.3d 815. Based on these indicia
of legislative intent, it does not appear that child abuse
by endangerment and shooting from a motor vehicle
are intended only to be “alternative means of
prosecution.” See Montoya, 2013-NMSC-020, ¶ 32.
{44} Defendant does not make an argument with
respect to these particular indicia of legislative intent.
Rather, Defendant relies on Santillanes, 2001-NMSC018, to support his position that separate punishments
for child abuse and shooting from a motor vehicle are
precluded by double jeopardy. However, the holding in
Santillanes that double jeopardy precluded multiple
punishments for vehicular homicide and child abuse
resulting in death depended in large part on “the
generally accepted notion that one death should result
in only one homicide conviction.” 2001-NMSC-018, ¶ 5
(internal quotation marks and citation omitted); see
Montoya, 2013-NMSC-020, ¶ 43 (stating that in
Santillanes this Court specifically affirmed the
reasoning of the Court of Appeals “that one death
should result in only one homicide conviction” (internal
quotation marks and citation omitted)). Thus, we are
not persuaded that its reasoning applies equally here.
{45} Similarly, Defendant points us to State v. Swick,
2012-NMSC-018, ¶¶ 11-31, 279 P.3d 747, which
determined that separate convictions for attempted
murder and aggravated battery arising from the same
conduct violate the prohibition against double jeopardy.
We note, however, that the Court in Swick first
determined that under a modified Blockburger

App. 29
analysis, the elements of attempted murder subsumed
the elements of aggravated battery. Id. ¶¶ 27- 29. The
Court went on to state, in the alternative, that even if
the statutes at issue survived a modified Blockburger
analysis, both statutes “address the social evil of
harmful attacks on a person’s physical safety and
integrity.” Id. ¶ 29. The statutes merely “take different
degrees into consideration.” Id. Here, as noted above,
Defendant has not provided us with a developed
argument regarding precisely how, if at all, a modified
Blockburger analysis applies in this case, nor are we
dealing with two statutes that address the same social
evil. Thus, we are not persuaded that Swick
appropriately informs our decision.
{46} And lastly, although Defendant invokes the
“substantive sameness” language from Montoya, 2013NMSC-020, ¶ 46, his simple string cite to three
unpublished cases, each dealing with the offense of
shooting at a motor vehicle, does not convince us that
the particular crimes at issue in our case—child abuse
and shooting from a motor vehicle—are substantively
the same offense for double jeopardy purposes. Cf. id.
¶ 52 (stating that our Supreme Court could no longer
conclude that the Legislature intended multiple
punishments for voluntary manslaughter and shooting
at a motor vehicle resulting in great bodily harm,
taking into consideration “the relationship between the
statutory offenses and their common commission by
unitary conduct, the identical social harms to which
they are directed, and their use by the [s]tate . . . to
impose double punishment for the killing of a single
victim”).

App. 30
{47} Consequently, in light of the Blockburger
inference that the Legislature intended to punish the
crimes of child abuse and shooting from a motor vehicle
separately, and taking into account the other indicia of
legislative intent, we conclude that multiple
punishments for these offenses do not constitute double
jeopardy.
{48} We note that the district court merged the child
abuse (recklessly caused, great bodily harm) and the
shooting from a motor vehicle (great bodily harm)
convictions for sentencing. Because we have concluded
that there is no double jeopardy violation, we can see
no error in the merger for sentencing. However, the
State argues in its answer brief that such a merger
constitutes a sentencing error. While an appellee is free
to assert any reason supporting affirmance, without
having first preserved the issue below, see State v.
Todisco, 2000-NMCA-064, ¶ 11, 129 N.M. 310, 6 P.3d
1032 (“Generally, an appellee has no duty to preserve
issues for review and may advance any ground for
affirmance on appeal.”), an appellee—absent a crossappeal—may only raise new points of error for our
determination in the event that we reverse the
judgment, in whole or in part. See Rule 12-201(C)
NMRA (“An appellee may, without taking a crossappeal . . . raise issues on appeal for the purpose of
enabling the appellate court to affirm, or raise issues
for determination only if the appellate court should
reverse, in whole or in part, the judgment or order
appealed from.”). Because we are reversing a portion of
the judgment and sentence, we can consider the State’s
issue, even in the absence of a cross-appeal. However,
we are not convinced by the State’s underdeveloped

App. 31
and unsupported argument that sentencing error
occurred in this case. See State v. Guerra, 2012-NMSC014, ¶21, 278 P.3d 1031 (stating that appellate courts
are under no obligation to review unclear or
undeveloped arguments); In re Adoption of Doe, 1984NMSC-024, ¶ 2, 100 N.M. 764, 676 P.2d 1329
(“[A]ppellate courts will not consider an issue if no
authority is cited in support of the issue and that, given
no cited authority, we assume no such authority
exists[.]”).
IV.

Inconsistent Verdicts

{49} Because the jury convicted Defendant for some,
but not all, of the shooting related charges, Defendant
argues that the verdicts are inconsistent. Specifically,
relying on the fact that the jury was instructed on selfdefense for all of the shooting related counts,
Defendant argues that “[b]ecause the jury found that
[he] was justified in shooting back at Trey in order to
defend himself, his girlfriend, and her sister, the jury
could not possibly and consistently have found that he
was guilty of child abuse and some counts of shooting
from a motor vehicle[.]”
{50} “Inconsistent verdicts are those which are so
contrary to each other that the basis upon which each
verdict was reached cannot be determined.” State v.
Fernandez, 1994-NMCA-056, ¶ 38, 117 N.M. 673, 875
P.2d 1104. However, it is well settled that we do not
entertain challenges to allegedly inconsistent verdicts.
See, e.g., State v. Roper, 2001-NMCA-093, ¶ 24, 131
N.M. 189, 34 P.3d 133 (“We have frequently said that
our business is to review the verdicts of conviction, and
not concern ourselves with any alleged acquittals, and

App. 32
thus we do not entertain contentions alleging that the
verdicts are irreconcilable.”); Fernandez, 1994-NMCA056, ¶ 39 (“[W]e review the verdict of conviction, not
the verdict of acquittal.”).
{51} Defendant relies on Hundley v. District of
Columbia, 494 F.3d 1097 (D.C. Cir. 2007), to support
his inconsistent verdict argument. Hundley is a federal
civil rights case that specifically dealt with an “assault
and battery and excessive force verdict [that] was
inconsistent with the written interrogatory answer[.]”
Id. at 1103-04. In the absence of a better developed
argument, we are not persuaded that this out-ofjurisdiction case is apposite to the issue in our case.
Therefore, we will apply the standard as laid out in
Roper; that is, “we do not entertain contentions alleging
that the verdicts are irreconcilable.” 2001-NMCA-093,
¶ 24.
{52} Inasmuch as there is sufficient evidence to
support the child abuse convictions, as addressed
above, and because there is otherwise no challenge to
the sufficiency of the evidence to support any of the
other convictions, we will not address this issue
further.
V. Excusal of a Prospective Juror for Cause
{53} Defendant argues that the district court
erroneously struck a prospective juror for cause based
on his religious beliefs and that such excusal
constituted a deprivation of Defendant’s constitutional
rights. We review the district court’s rulings on juror
challenges for cause under an abuse of discretion
standard. State v. Gardner, 2003-NMCA-107, ¶ 16, 134

App. 33
N.M. 294, 76 P.3d 47. The district court “is in the best
position to assess a juror’s state of mind, by taking into
consideration the juror’s demeanor and credibility. It is
within the district court’s discretion as to whether a
prospective juror should be excused.” State v. Clark,
1999-NMSC-035, ¶ 10, 128 N.M. 119, 990 P.2d 793.
“We will not disturb the [district] court’s decision
absent a clear abuse of discretion or a manifest error.”
State v. Sutphin, 1988-NMSC-031, ¶ 16, 107 N.M. 126,
753 P.2d 1314.
{54} “The [district] court properly excludes a juror for
cause where the juror’s views would prevent or
substantially impair the performance of his duties as a
juror in accordance with his instructions and his oath.”
Gardner, 2003-NMCA-107, ¶ 16 (internal quotation
marks and citation omitted). Here, the district court
struck a prospective juror for cause who stated: “My
spiritual beliefs make it so that I will not pass
judgment on another man[.]” The prospective juror also
stated that if he were chosen as a juror, he would “not
be able to engage in making a decision[.]”
{55} The prospective juror’s own statements clearly
demonstrate that his views would prevent or
substantially impair the performance of his duties as a
juror in accordance with his instructions and his oath.
As such, there was not a clear abuse of discretion or a
manifest error in this case and we will not disturb the
district court’s decision to excuse the prospective juror.
See Clark, 1999-NMSC-035, ¶ 12 (holding that there
was no abuse of discretion where jurors were excused,
not because they were members of a particular religion,
but rather because they were unable to apply the law).

App. 34
VI.

Ineffective Assistance of Counsel

{56} Finally, Defendant contends that his attorney
was ineffective by mistakenly advising him that the
alternative to count one was a third-degree felony when
it was actually a first-degree felony if it resulted in
great bodily harm. As a consequence, Defendant
asserts on appeal that he would have considered “the
State’s plea offer in a different light had he been
properly informed about the sentence that he was
facing if convicted of reckless child abuse.”
{57} Appellate courts have a preference that
ineffective assistance of counsel claims be brought and
resolved through habeas corpus proceedings. Bernal,
2006-NMSC-050, ¶ 33. “[O]n direct appeal, only when
a defendant presents a prima facie case of ineffective
assistance of counsel will [the appellate courts] remand
to the trial court for evidentiary proceedings.” Id. “A
prima facie case of ineffective assistance of counsel
requires that a defendant establish that: (1) counsel’s
performance fell below that of a reasonably competent
attorney; (2) no plausible, rational strategy or tactic
explains counsel’s conduct; and (3) counsel’s apparent
failings were prejudicial to the defense.” State v.
Cordova, 2014-NMCA-081, ¶ 9, 331 P.3d 980 (internal
quotation marks and citation omitted).
{58} To prevail on an ineffective assistance of counsel
claim based upon the rejection of a plea offer, a
defendant must show
that but for the ineffective advice of counsel
there is a reasonable probability that the plea
offer would have been presented to the court

App. 35
(i.e., that the defendant would have accepted the
plea and the prosecution would not have
withdrawn it in light of intervening
circumstances), that the court would have
accepted its terms, and that the conviction or
sentence, or both, under the offer’s terms would
have been less severe than under the judgment
and sentence that in fact were imposed.
Id. ¶ 12 (quoting Lafler v. Cooper, 566 U.S. 156, 164
(2012)). “Although the standard to be applied in this
context is different, it is nevertheless an ineffective
assistance of counsel claim” and the preference that
these claims be adjudicated in habeas proceedings still
applies. Id. ¶ 13. Resolution of this type of claim
requires the same adequate record. Id. “Accordingly,
we will remand to the district court for an evidentiary
hearing only if the defendant has presented a prima
facie case of ineffective assistance of counsel.” Id.
{59} In this case, there was no evidence presented
below to support Defendant’s ineffective assistance of
counsel claim. There is only argument of counsel,
Defendant’s motion for new trial, and testimony from
Defendant’s uncle at sentencing that Defendant chose
to go trial believing he would be able to avoid the 18year sentence. Notably, Defendant does not argue, and
the record does not otherwise establish, that Defendant
would have accepted the plea offer had he been advised
that the alternative to count one was a first-degree
felony. Instead, he asserts on appeal simply that he
“would have considered the State’s plea offer in a
different light had he been properly informed about the
sentence that he was facing if convicted of reckless

App. 36
child abuse.” This is not sufficient under Cordova, as
laid out above, to establish a prima facie case of
ineffective assistance of counsel. Cf. State v. Morgan,
2016-NMCA-089, ¶ 25, 382 P.3d 981 (“The mere
existence of a plea offer. . . has no bearing on whether
[the d]efendant would have accepted it[.]”).
{60} Thus, Defendant has failed to establish a prima
facie case of ineffective assistance of counsel. He may,
however, raise this issue, if he is so inclined, through a
habeas corpus proceeding.
CONCLUSION
{61} For these reasons, we conclude that Defendant’s
convictions for two counts of child abuse (recklessly
caused, no death or great bodily harm) violate double
jeopardy and we remand to the district court to vacate
one of the two convictions. We otherwise affirm.
{62}

IT IS SO ORDERED.

/s/Daniel J. Gallegos
DANIEL J. GALLEGOS, Judge Pro Tempore
WE CONCUR:
/s/Linda M. Vanzi
LINDA M. VANZI, Chief Judge
/s/Emil J. Kiehne
EMIL J. KIEHNE, Judge Pro Tempore

App. 37

APPENDIX C
SECOND JUDICIAL DISTRICT COURT
COUNTY OF BERNALILLO
STATE OF NEW MEXICO
CR 2013-03307
DA#: 2013-03995-2
[Filed September 15, 2016]
__________________________
STATE OF NEW MEXICO, )
)
Plaintiff,
)
)
vs.
)
)
RYAN A. BEGAY,
)
DOB:XX/XX/1993
)
SSN: XXX-XX-1189
)
)
Defendant.
)
__________________________ )
JUDGMENT, SENTENCE AND COMMITMENT
On June 21, 2016 this case came before the
Honorable Stanley Whitaker, District Judge, for
sentencing, the State appearing by Haley W. Murphy
and Mark Probasco, Assistant District Attorneys, the
Defendant appearing personally and by his attorney
Naomi Salazar, and the Defendant having been
convicted on May 16, 2016, pursuant to a verdict of

App. 38
GUILTY by a jury, accepted and recorded by the Court,
of the offenses:
1. CHILD ABUSE (RECKLESSLY CAUSED)
(GREAT BODILY HARM) (FE) (6586) a first degree
felony offense with a firearm, an optional serious
violent offense, occurring on or about the 26th day of
June, 2013, as charged in Count 1 of Amended
Indictment CR 2013-03307. This Count is designated a
serious violent offense.
2. CHILD ABUSE (RECKLESSLY CAUSED) (NO
DEATH OR GREAT BODILY HARM) (FE) (6562), a
third degree felony offense with a firearm, an optional
serious violent offense, occurring on or about the 26th
day of June, 2013, as charged in Count 2 of Amended
Indictment CR 2013-03307. This Count shall not be
designated a serious violent offense.
3. CHILD ABUSE (RECKLESSLY CAUSED) (NO
DEATH OR GREAT BODILY HARM) (FE) (6562), a
third degree felony offense with a firearm, an optional
serious violent offense, occurring on or about the 26th
day of June, 2013, as charged in Count 3 of Amended
Indictment CR 2013-03307. This Count shall not be
designated a serious violent offense.
3. [sic] SHOOTING AT OR FROM A MOTOR
VEHICLE (GREAT BODILY HARM) (FE) (0086), a
second degree felony offense with a firearm, occurring
on or about the 26th day of June, 2013, as charged in
Count 4 of Amended Indictment CR 2013-03307.
4. SHOOTING AT OR FROM A MOTOR VEHICLE
(NO INJURY) (FE)(0084), a fourth degree felony
offense with a firearm, occurring on or about the 26th

App. 39
day of June, 2013, as charged in Count 6 of Amended
Indictment CR 2013-03307.
5. TAMPERING WITH EVIDENCE, a third degree
felony offense, occurring on or about the 26th day of
June, 2013, as charged in Count 15 of Amended
Indictment CR 2013-03307. The associated felony for
this count is CHILD ABUSE (RECKLESSLY
CAUSED) (GREAT BODILY HARM), a first degree
felony.
The Defendant is hereby found and adjudged guilty
and convicted of said crimes, and is sentenced to the
custody of the Corrections Department to be
imprisoned to eighteen (18) years as charged in Count
1 of Amended Indictment CR 2013-03307, to be
enhanced by one (1) year for the Firearm
Enhancement, three (3) years as to Count 2 of
Amended Indictment CR 2013-03307, to be enhanced
by one (1) year for the Firearm Enhancement, three (3)
years as to Count 3 of Amended Indictment CR 201303307, to be enhanced by one (1) year for the Firearm
Enhancement, nine (9) years as to Count 4 of Amended
Indictment CR 2013-03307, to be enhanced by one
(1) year for the Firearm Enhancement, eighteen (18)
months as to Count 6 of Amended Indictment CR 201303307, to be enhanced by one (1) year for the Firearm
Enhancement, and three (3) years as to Count 15 of the
Amended Indictment CR 2013-03307. The Counts shall
run in the following order. Counts 1 and 4 shall merge
for purposes of sentencing. Counts 2 and 3 shall merge
for purposes of sentencing. Merged Counts 2 and 3
shall run concurrent to Count 1. Count 6 shall run
concurrent to Count 4. Count 15 shall run concurrent

App. 40
to Count 1, for a total term of nineteen (19) years
imprisonment in the Department of Corrections. The
following shall be recommendations of parole:
1. Defendant shall submit a DNA sample and pay
the $100 DNA fee;
2. Defendant shall pay the $5 domestic violence
fund fee;
3. Defendant must pay restitution, in an amount to
be determined by Probation Authorities;
4. Defendant must pay probation costs, in an
amount to be determined by Probation Authorities;
5. Defendant shall have no contact with the victim
or family during any period of incarceration,
probation or parole;
6. Defendant shall pay the Crime Victims
Reparation Fee of $75.00;
7. Defendant shall not consume alcohol or drugs
and shall be subject to random testing.
THEREFORE, You, the Corrections Department of
the State of New Mexico are hereby commanded to take
the above-named Defendant in custody and confine him
for the above term.
Defendant is to receive credit for 415 days presentence confinement and for post-sentence
confinement until delivery to the place of incarceration.
The following Counts of Indictment CR 2013-03307
were resolved by directed verdict of Acquittal or
dismissal by the State prior to the case going to the

App. 41
jury: The charges related to Child Abuse (Intentionally
Caused), Counts 1, 2, 3. The first Alternatives were renumbered sequentially. The Jury returned verdicts of
Not Guilty on Counts 5, 7, 8, 9, 10, 11, 12, 13 and 14 of
Indictment CR 2013-03307.
IT IS FURTHER ORDERED that following the
release from incarceration, the defendant shall be
placed on parole for two (2) years after release and be
required to pay parole costs.
/s/Stanley Whitaker
STANLEY WHITAKER
DISTRICT JUDGE 9/14/16
APPROVED:
/s/Haley W. Murphy
Haley W. Murphy
Assistant District Attorney
Approved as to form only 9/5/2016
Naomi Salazar
Attorney for Defendant
jc

